<html>
<title> - LIVING ON THE STREET: FINDING SOLUTIONS TO PROTECT RUNAWAY AND HOMELESS YOUTH</title>
<body><pre>[Senate Hearing 110-411]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-411
 
LIVING ON THE STREET: FINDING SOLUTIONS TO PROTECT RUNAWAY AND HOMELESS 
                                 YOUTH
=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2008

                               __________

                          Serial No. J-110-88

                               __________

         Printed for the use of the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE

42-785 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    21
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    36

                               WITNESSES

Hounsou, Djimon, Actor and Advocate, Los Angeles, California.....     3
Hutchins, Michael, Residential Manager, Spectrum Youth and Family 
  Services Burlington, Vermont...................................     6
Kilbane, Jerome, Executive Director, Covenant House Pennsylvania, 
  Philadelphia, Pennsylvania.....................................    11
Redmond, Mark, Executive Director, Spectrum Youth and Family 
  Services, Burlington, Vermont..................................     4
Wagner, Victoria A., Chief Executive Officer, National Network 
  for Youth, Washington, D.C.....................................     9

                       SUBMISSIONS FOR THE RECORD

Garcia, Janet, Deputy Director, Governor's Office for Children, 
  Youth and Families, Director, Division for Children, Phoenix, 
  Arizona, statement.............................................    23
Hounsou, Djimon, Actor and Advocate, Los Angeles, California, 
  statement......................................................    27
Hutchins, Michael, Residential Manager, Spectrum Youth and Family 
  Services, Burlington, Vermont, statement.......................    29
Illinois Collaboration on Youth, Denis Murstein, Executive 
  Director, Chicago, Illinois, statement.........................    31
Kilbane, Jerome, Executive Director, Covenant House Pennsylvania, 
  Philadelphia, Pennsylvania, statement..........................    33
National Alliance to End Homelessness, Nan Roman, President, 
  Washington, D.C., statement....................................    38
Pinkham, Kreig, Director, Vermont Coalition of Runaway and 
  Homeless Youth Programs, Waterbury, Vermont, statement.........    43
Redmond, Mark, Executive Director, Spectrum Youth and Family 
  Services, Burlington, Vermont, statement.......................    47
Wagner, Victoria A., Chief Executive Officer, National Network 
  for Youth, Washington, D.C., statement and attachment..........    49


LIVING ON THE STREET: FINDING SOLUTIONS TO PROTECT RUNAWAY AND HOMELESS 
                                 YOUTH

                              ----------                              


                        TUESDAY, APRIL 29, 2008

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 10:06 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                 THE STATE OF VERMONT, CHAIRMAN

    Chairman Leahy. Good morning. We're going to talk today 
about youth homelessness. It's an issue on which we should 
share a common concern. America is the wealthiest Nation in the 
world and the problem of youth homelessness is shockingly high. 
This is not just in larger cities, but smaller communities and 
rural areas, as is much of the area I represent in the State of 
Vermont.
    We're going to hear from several witnesses who are going to 
speak firsthand about the challenges young people face when 
they have nowhere to go. They also show the potential within 
young people who face the most harrowing obstacles, if they're 
given a chance. One of these homeless went on to become an 
Oscar-nominated actor; another now works with homeless youth in 
my home State of Vermont and is on his way to great things. So, 
I look forward to hearing from all of these witnesses.
    Homeless youth is a problem around the world. It affects 
these young people most directly when they're homeless, but it 
really affects and endangers the future as well, theirs and 
everybody else's. There remains a problem, and our wealthy 
country means we need to redouble our commitment and our 
efforts. We need to support those in small towns and 
communities across the country who work on this problem every 
day and see it firsthand.
    Now, the Justice Department estimated that 1.7 million 
young people either ran away from home or were thrown out of 
their homes in 1999. 1.7 million. Another study suggested a 
number closer to 2.8 million in 2002. Now, whether you're 
talking about 1 million or 5 million, young people become 
homeless for a variety of reasons, including abandonment, 
running away from an abusive home, having no place to go after 
they've left State care.
    An estimated 40 to 60 percent of homeless kids are expected 
to experience physical abuse, 17 to 35 percent experience 
sexual abuse while on the street. Homeless youth are also at 
greater risk of mental health problems. Now, many receive vital 
services in their communities, but a very large number of them 
remain a hidden population.
    The Runaway Homeless Youth Act is the way in which the 
Federal Government helps communities across the country protect 
some of our most vulnerable children. It was first passed the 
year I was elected to the Senate. That was 1974. We have 
reauthorized it several times over the years. I've worked with 
Senator Specter, Senator Hatch, and others on both sides of the 
aisle, and I hope we can reauthorize it again this year.
    Now, some have tried to end these programs, but a 
bipartisan group of Senators said no. This law, the programs it 
funds and provides a safety net that gives young people a 
chance to build lives for themselves. It helps reunite 
youngsters with their families.
    Considering the increasingly difficult economic conditions 
as we go into a recession being experienced by so many families 
around the country, now is the time to recommit ourselves to 
these programs, not to let these programs expire.
    Under the Act, every State receives a basic center grant to 
provide housing and crisis services for runaway and homeless 
youth and their families. Community-based groups around the 
country can apply for funding through the Transitional Living 
Program and Sexual Abuse Prevention Street Outreach Grant 
program, to provide longer term housing to homeless youth 
between 16 and 21, but also to help them become self-
sufficient.
    In Vermont, the Vermont Coalition for Runaways, the 
Homeless Youth, the New England Network for Child, Youth, and 
Family Services, and Spectrum Youth and Family Services in 
Burlington all receive grants under these programs. They've all 
provided excellent service.
    Recently we learned that the street outreach programs in 
Vermont served nearly 10,000 young people. Think of that 
number. We are a State of only 600,000 people and we helped 
10,000 young people. Replicate that in the other 49 States or 
in a country of 300 million.
    So, the topics are difficult. They deserve our attention. 
We have a distinguished panel of witnesses today of the people 
working directly with youth in the streets today in rural 
places like Vermont, those who are lending their names and 
voices to a worthy cause. It's necessary that we find ways to 
approach this.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    So what I'm going to do, I'm going to introduce each 
witness and ask them to speak, and then we'll go into 
questions.
    Djimon Hounsou is an Academy Award-nominated actor. He's an 
advocate on behalf of homeless youth. We had a chance to chat 
prior to this hearing and he was kind enough to not correct my 
French when we were speaking French. He's best known for his 
roles in films such as Amistad, when I first saw him, the film, 
In America, and Blood Diamond, which, as difficult as it is to 
watch, I would urge everybody to see to see what's happening 
the world today. He's won numerous awards, including an NAACP 
Image Award and a National Board of Review Award. He testifies 
today based on personal experience. He was born in West Africa. 
He moved to Paris at age 13 in order to get a better education. 
While living in France as a youth, he became homeless. So we 
will begin, Mr. Hounsou, avec vous.

 STATEMENT OF DJIMON HOUNSOU, ACTOR AND ADVOCATE, LOS ANGELES, 
                           CALIFORNIA

    Mr. Hounsou. Thank you, Chairman Leahy and members of the 
Committee for this opportunity to speak on behalf of the 
Runaway and Homeless Youth Act, which serves our country's 
troubled and neglected adolescents that are so in need of our 
assistance.
    My name is Djimon Hounsou and I can address this issue 
personally, having experienced the very problem that we are 
discussing.
    It is known to some that this cause is of personal 
importance to me and connects on a deeply intimate level. While 
I stand before you today accomplished and successful in the 
eyes of society, I haven't always been so fortunate. After 
leaving my home at an early age and moving to France, I lived 
on the streets for some time, fighting for survival and 
searching out for nothing more than my daily necessities for a 
meager existence. I lived out my days in hunger and 
desperation.
    So this cause is not merely some distant charity that I 
contribute to from my home due to feelings of guilt or 
goodwill, but my concern comes from an intimate understanding 
of the situation that these children face.
    This issue is as relevant today as it was in 1991, at the 
last hearing on the matter. We cannot ignore this crisis any 
longer. The mostly silent problem of homeless and disconnected 
youth in our country will not simply disappear.
    The RHYA is important because kids need to dream. The hopes 
and dreams of homeless youth who live on the street, however, 
are stifled and crushed and there is no room left for a vision 
of the future. When you lack the basic necessities required for 
survival, everything else fades away and you are left with 
nothing but the aching desire for food and shelter. I believe 
in the beauty and importance of our youth and I believe that we 
have the responsibility to protect and nurture the generation 
beneath us to preserve our future and theirs. Therefore, we 
need to champion causes such as the RHYA and the National 
Network's Place to Call Home campaign, and find other ways to 
help safeguard and teach our youth.
    It is a sad state of affairs when the richest country in 
the world has over 2 million children and adolescents living on 
the streets. This should not be seen as a crisis, but a crime. 
It should not be taken lightly or overlooked. It is wonderful 
that we live in such a generous country that is able to help so 
many others in need around the world, but let us not forget the 
people closest to home.
    Now, the question is not whether we can afford to fund such 
a cause, the question is how can we afford not to? The homeless 
children of our country and the kids that have run away who 
choose to live on the streets rather than to deal with their 
family lives deserve not only a better, brighter future, but a 
better today.
    In summary, I urge the Committee to quickly reauthorize the 
Runaway and Homeless Youth Act so that community-based 
organizations can provide a much-needed safety net for youth in 
runaway and homeless situations.
    I also encourage you to support the National Network for 
Youth's Place to Call Home campaign, a comprehensive public 
policy platform that seeks to prevent and end homelessness 
among our youth. If we have learned anything over the last 30 
years, it is that young people's chances of becoming 
productive, contributing members of society are greatly 
increased when they are given the opportunity to realize and 
pursue their dreams. We need to guard and preserve the 
innocence and purity of the youth of our country and help 
cultivate and encourage their hopes and dreams. Without a home, 
food, and clothing, children do not have even the opportunity 
needed to rise above their circumstances.
    So I thank the Chairman and members of the Committee for 
taking leadership on the important issue of runaway and 
homeless youth, and I look forward to answering any questions 
you may have.
    Thank you.
    Chairman Leahy. Thank you very much.
    [The prepared statement of Mr. Hounsou appears as a 
submission for the record.]
    Chairman Leahy. Mark Redmond will be our next witness. He's 
the executive director of Spectrum Youth and Family Services in 
Burlington, Vermont. He's worked there since 2003. Is that 
correct?
    Mr. Redmond. That's correct.
    Chairman Leahy. He spent almost 27 years volunteering and 
working for various nonprofit organizations on behalf of 
homeless, runaway, and at-risk youth, including the Domos 
Foundation Stamp for Connecticut and Covenant House in New 
York. Mr. Redmond's book, The Goodness Within: Reaching Out to 
Troubled Teens With Love and Compassion, was published in 2004. 
He's also written articles and essays that have been featured 
in major nationwide publications. He received his bachelor's 
degree from Villa Nova, his master's degree from New York 
University.
    Mr. Redmond, you and I also chatted briefly this morning, 
and I'm delighted to have you here. Please go ahead.

 STATEMENT OF MARK REDMOND, EXECUTIVE DIRECTOR, SPECTRUM YOUTH 
            AND FAMILY SERVICES, BURLINGTON, VERMONT

    Mr. Redmond. Thank you, Chairman Leahy and members of the 
Committee, for this opportunity to address the fundamental role 
of the Runaway and Homeless Youth Act in serving young people 
in our country who are disconnected from family and other 
supports, many of whom end up living on the streets.
    I'm the executive director of Spectrum Youth and Family 
Services in Burlington, Vermont. We're the largest provider of 
services to homeless and at-risk youth in the State. We've been 
in existence since 1970. In fact, Senator Leahy was one of our 
early board members. We're also a longstanding member of the 
National Network for Youth.
    The Act authorizes three distinct programs. Spectrum is the 
only nonprofit in Vermont which receives funding for, and 
provides services in, all three areas. The first program within 
the continuum is called Street Outreach. We hire professional, 
credentialed adults and college students from nearby St. 
Michael's College and the University of Vermont, and our staff 
are out every day connecting with scores of homeless youth in 
Burlington. Some of them are living in abandoned box cars down 
by Lake Champlain, some of them live in the woods out by the 
lake, others live behind restaurants on Church Street. Our 
staff are out there every day. They know them by name. They're 
distributing sandwiches, blankets, sleeping bags, clothing, 
gloves, anything to meet their most basic needs.
    Our outreach staff use these contacts to build trusting 
relationships with youth so we can get them off the streets and 
into our shelter. We also have a drop-in center as part of our 
outreach program, right off the main pedestrian mall in 
downtown Burlington. Every day of the year, homeless youth can 
come in and receive a free hot lunch, free hot dinner, change 
of clothing, shower, do their laundry, and there's a free 
health clinic right next door run by the Community Health 
Center of Burlington where they can see a doctor a nurse.
    We have four job developers on staff to help kinds find 
jobs. We have a full-time teacher on staff to help them get 
their GED or their high school diploma. We even have a part-
time person to help kids get into college. We have licensed 
mental health and substance abuse counselors on staff because 
we know that mental illness, alcoholism, and drug addiction are 
prevalent among this population.
    The second program model of the Act is called Basic Center. 
Basic Center funds support our 12-bed shelter, which is right 
above the drop-in center. That, too, is open every day of the 
year. From the moment a youth arrives, the message is: how can 
we support you in developing a plan that will get you off the 
streets permanently? Our shelter staff also work closely with 
young people's families to support reunification, if that is 
possible.
    The third component of the Act is called the Transitional 
Living Program. At Spectrum, this consists of a nine-unit SRO, 
single-room occupancy, building which is a few blocks away from 
the shelter. If a young person is in our shelter and cannot be 
safely reunified with his or her family, he or she then 
transitions over to the longer term SRO where they get a 
Section 8 lease and their own room. They can stay there for up 
to 18 months. A few years ago we developed an after-care 
support, allowing you to successfully graduate from the SRO, to 
receive a Section 8 voucher to take out into the housing 
market.
    Other young people will go into a college dorm, they'll go 
into Job Corps, or State safe and stable living situations. 
Just a month ago, we even had one young man who, 2 years ago 
was homeless, living in a truck, came to Spectrum, went through 
our programs, and after he graduated he decided he wanted to 
become a Marine. Two weeks ago, he graduated from Paris Island 
boot camp, and today he's a Marine. So, our mission is to help 
homeless youth develop a plan that leads to self-sufficiency 
and independent living.
    The Runaway and Homeless Youth Act supports all of this 
work that we do, which is why it's so important to reauthorize 
it before it sunsets in September. A few recommendations that 
would strengthen the Act. First, the small State minimum for 
Basic Center should be increased to $200,000. It's only 
$100,000 now. That's all that the entire State of Vermont 
receives right now, and Spectrum only receives $18,000 of that. 
So, it's very difficult to operate a program on so little 
money.
    Second, the authorization levels for the consolidated 
account should be $200 million, and the Street Outreach 
programs authorized at $30 million. Spectrum has been level-
funded since 1994, so you can only imagine how costs have risen 
in 14 years, while the grant amount stays the same. With more 
funding available, we could assist youth in exiting the 
streets, connecting them to school and to the workforce.
    Finally, please extend the amount of time a young person 
can remain in a transitional living program from the current 18 
months to 2 years.
    Thank you, Senator, for this opportunity to speak to you 
today. I look forward to answering any questions you may have.
    Chairman Leahy. Thank you very much.
    [The prepared statement of Mr. Redmond appears as a 
submission for the record.]
    Chairman Leahy. I should note for anybody who's watching 
us, when you talk about the number of homeless people in 
Burlington and sleeping out, I was showing some of you a 
picture earlier that my grandson took in our home of Vermont 
just 6 weeks ago with a 10-foot snow bank behind it from where 
they'd been plowing our driveway. Vermont is not a southern 
State. We can have temperatures literally 10, 15 degrees, 20 
degrees below zero in the wintertime, as well as very severe 
weather. This is just to put in context what being homeless 
there can be. I never know each week when I go home what the 
weather is going to be because it changes and it can be severe.
    Now, Michael Hutchins is a residential manager at the 
Spectrum Youth Co-Op in Burlington, Vermont. Mr. Hutchins, I 
hope you won't mind that I'd point out that you've overcome 
addiction, post-traumatic stress disorder, and homelessness. I 
mention those things because you're not speaking in the 
abstract when you speak here. You had a drug overdose in 2002. 
After that, you became a client at Spectrum's Runaway and 
Homeless Youth Shelter, and 3 years later became part of their 
residential team. You're currently enrolled at Springfield 
College's School of Human Services in St. Johnsbury, Vermont, 
working a bachelor of science degree in human services, with 
concentration in addiction studies. Again, an example of having 
people who are testifying here, not speaking about some 
abstract concept.
    Mr. Hutchins, it's all yours.

 STATEMENT OF MICHAEL HUTCHINS, RESIDENTIAL MANAGER, SPECTRUM 
         YOUTH AND FAMILY SERVICES, BURLINGTON, VERMONT

    Mr. Hutchins. Thank you very much. I work as a residential 
manager at Spectrum Youth and Family Services. At the Youth Co-
Op, we house up to six teenaged youth, ages 15-19, who are in 
the foster care system. I can identify with the youth that I 
have the opportunity to work with because I know what it is 
like to be homeless, and I know how difficult it is to be 
struggling with addictions and mental health issues, as these 
young men are.
    I first came to Spectrum in May of 2002 as a client in the 
shelter. Just 1 week prior to my arrival, I had barely survived 
a drug overdose in the club that I worked at down in Orlando, 
Florida. Unlike the experiences of most runaway and homeless 
youth, there had been no immediate family conflict between my 
adoptive mother and myself.
    My mother is a renowned psychologist who has specialized in 
child and family counseling for almost as many years as I am 
old. She had a lot of work to do when she adopted me, as I had 
6 years' worth of physical and sexual abuse that had occurred 
while I was in the care of my biological mother. My experience 
of abuse is common among youth who experience homelessness. 
Studies have shown that between 40 and 60 percent of homeless 
youth have experienced such abuse during their childhood. So, 
my adoptive mother was my saving grace and I'm very lucky to 
have her as my parent.
    The large part of the problems I encountered down in 
Florida, most specifically the addiction and the homeless and 
the overdose, were due to the fact that I wanted to prove my 
independence, not just to myself, but to anyone and everyone 
who might have said I wasn't going to make it out on my own.
    Back then, going back home to Vermont from Florida, getting 
support from my family was not really an option for me, as I 
was trying to figure out who I was, what I believed in, what I 
wanted to do with my life, and without my decisions being 
influenced by my mother's opinions.
    Another factor that played a part was the fact that, as an 
adopted adolescent who hadn't heard from his biological mother 
in years, I wasn't sure if I felt that I belonged to anybody. 
So after a 3-month binge on narcotics, my body finally fell out 
from beneath me. I went into seizures on the ground outside of 
the club and my heart had stopped beating on the way to the 
emergency room. The EMTs had to resuscitate me in the ambulance 
and I awoke in a hospital bed several hours later, alone, 
homeless, broke, and terrified. The only thing that I possessed 
in that moment was the realization that I wouldn't be alive 
much longer if I didn't get help.
    So with the help of family members and friends of the 
family who work in the field of human services, the referral to 
Spectrum came swiftly to my list of options. My other choices 
included joining the military, moving to Philadelphia to live 
near my brother, or staying in Orlando and risking death yet 
again. So I chose Spectrum because I wanted to be closer to 
home and people that I know who cared about me.
    So once I arrived at Spectrum and made the decision to stay 
dedicated to getting my life on track and clear of narcotics, 
it only took me 2 months to earn my way out of the shelter and 
into Spectrum's transitional living program, the SRO.
    During my 18-month stay there, I went through intensive 
inpatient treatment at Conifer Parks Drug Rehabilitation Center 
in Schenectady, New York, intensive outpatient treatment in the 
form of group therapy which met three times each week at a 
Burlington facility called Day One, and attended Alcoholics 
Anonymous and Narcotics Anonymous meetings nearly twice a day 
for several months.
    Everyone on my Spectrum treatment team--my case manager, 
counselor, doctor, and the workers in the jobs program and the 
education department--as well as all the residential managers 
who worked in the shelter and the SRO, all helped me achieve my 
ultimate goal: to live independently in the community as a 
self-sufficient young adult.
    Once I successfully completed the three phases of the SRO 
program, I moved into an apartment with a friend that I'd made 
while working as a seasonal worker at a video game store. About 
a year and a half later, after working as a shift supervisor at 
a McDonald's restaurant and assistant store manager at the 
video game store, it didn't really take me long to realize 
that, as proud as I was to have the managerial skills that I 
had learned, it wasn't rewarding enough work.
    So I remembered a conversation I had with our residential 
director, Elise Brokaw, and I'd asked her if she thought I 
would make a good staff member some day. She told me to give it 
a year out on my own and then to come back and talk to her and 
she'd be glad to have me on board.
    So as soon as I got hired at Spectrum, I quit my job at the 
video game store and after 6 months of working part-time 
respite I was taken on as full-time staff. I have worked there 
for almost 3 years. It's been amazing to watch these young 
individuals work on treatment goals similar to those that I had 
once set for myself. It is highly rewarding to be able to 
assist and support them through their difficult struggles. Now 
instead of helping people make decisions on which video game to 
buy or whether to super-size their meal, I am able to help them 
make important decisions about their lives.
    When a youth tells me that I don't understand what they're 
going through, I can tell them now that I know exactly how they 
are feeling. I believe my experience as a Spectrum client gives 
hope to the youth that I work with so they can see proof that 
success through this program is, indeed, possible. I've even 
had them ask me if I thought they would make a good staff 
member someday, so things have come around full circle.
    I can only hope that the youth that I work with, as well as 
the thousands and thousands of homeless and runaway youth in 
this Nation today, will be able to share their own success 
stories like mine, and encourage others to improve the quality 
of their lives as well.
    Without the funding that the Runaway and Homeless Youth Act 
provides to organizations like Spectrum nationwide, those 
success stories might never occur. If Spectrum Youth and Family 
Services had not existed on May 19, 2002, I would not be 
standing before you today.
    So I profess to you that I believe in this system 
wholeheartedly, and I implore you to not only reauthorize this 
Act before it expires, but to focus in the years to come on how 
we as a Nation can improve the quality of the lives of youth 
who believe they don't have a brighter tomorrow.
    Chairman Leahy. Thank you, Mr. Hutchins. I appreciate you 
being here. We'll have questions in a few minutes.
    [The prepared statement of Mr. Hutchins appears as a 
submission for the record.]
    Chairman Leahy. Victoria Wagner, is the president and CEO 
of the National Network for Youth, a national membership 
organization that represents the needs of homeless youth to 
policymakers and lawmakers. Prior to working with the National 
Network for Youth, Ms. Wagner served as the CEO of Youth Care, 
a multi-million dollar agency devoted to homeless and runaway 
youth from 1985 to 2004. Is that correct?
    Ms. Wagner. That's correct.
    Chairman Leahy. She served on the boards of numerous 
organizations, including the International Forum for Child 
Welfare, the Child Welfare League of America's International 
Committee, and the Council on Accreditation.
    Again, in keeping with the previous three, she can speak 
from experience. Ms. Wagner was a former runaway herself. She's 
devoted her career to changing the lives and circumstances of 
runaway and homeless youth.
    Ms. Wagner, the floor is yours.

   STATEMENT OF VICTORIA A. WAGNER, CHIEF EXECUTIVE OFFICER, 
          NATIONAL NETWORK FOR YOUTH, WASHINGTON, D.C.

    Ms. Wagner. Well, thank you, Mr. Chairman. It's a pleasure 
to be here with such a distinguished panel.
    As you said, my roots in this really were 40-some years 
ago. I was sexually abused for 2 years by a stepfather. I ran 
away from home as a result of that. The Runaway and Homeless 
Youth Act did not exist. There was no one there to reach out a 
hand, there was no one there to help troubled youth.
    As a result, I went in front of a judge and I was locked up 
for a year for nothing more than running away. During that 
year, I decided that it was important to me to try to change 
what happened to runaway youth and I've spent my career doing 
that. I deeply, deeply believe in the Runaway and Homeless 
Youth Act. It is the only source of money in this country that 
allows a young person to walk in the door of a program without 
going through a State, without going through police, or some 
other kind of gatekeeper and get help.
    We need to fund it at much higher levels. We need to make 
sure that there are not long waiting lists. Behind me sits the 
executive director of one of the oldest runaway programs in the 
country, Sasha Bruce Youthwork. It is one mile from here. It 
has a waiting list of a year for young people to get into 
transitional housing. I find that, personally, deeply 
disturbing.
    As you said, the National Network for Youth represents 400 
organizations across the country. Between them, they serve 2.5 
million young people annually. Last year, we launched a 
sweeping campaign called the Place to Call Home campaign that 
looks at legislative issues, policy issues, and program issues 
that relate to runaway and homeless youth.
    As you said, it's difficult to know the size of the 
homeless youth population. Some estimates are 1.7 million, some 
estimates are higher. What I know personally is that it is a 
crime to have a young person on the streets of America that's 
homeless. Young people--not surprisingly--they still report 
family conflict, drug and alcohol problems within the home, and 
increasingly family poverty, as reasons for leaving home.
    When I worked as a street outreach worker and an executive 
director, we heard stories of young people literally being left 
by their families during a move and the children having nowhere 
to go.
    The National Network has submitted written testimony, as 
I'm sure you know, with a number of policy recommendations, but 
I would like to highlight some of our priority recommendations.
    The first of those, which I don't think should be a 
surprise, is to ask HHS every fifth year to do a national 
estimate of the prevalence of runaway and homeless episodes 
among youth. It's very difficult to have appropriate guidance 
and funding when our numbers are such a guesstimate, and I 
honestly think they are a guesstimate.
    There was a study done by HHS in 2003 that recommended 
doing such prevalence studies every 5 to 10 years. Nothing has 
been done since that. We would really urge you to make that 
part of this reauthorization.
    Obviously, my second priority is to reauthorize the Runaway 
and Homeless Youth Act. We certainly echo Mr. Redmond's 
recommendations on the funding levels. I would certainly ask 
for higher if I thought there was any chance. I believe that a 
country that's been--
    Chairman Leahy. So would I.
    Ms. Wagner. Yes. Okay. Well, why don't we, you know, divert 
some funds from other places and take care of our children, is 
what I would say.
    The Runaway and Homeless Youth programs are remarkably 
successful. When Djimon and I had breakfast this morning, we 
were talking about what works. Is there something that works? 
Well, these programs work. That is what is so appalling, that 
we know that they work and yet we don't fund them. They 
decrease drop-out rates, increase young people going into 
college, help families get back together, and reduce physical 
abuse. They do many, many positive things. Last year, they 
served 740,000 young people. Of those, only 7 percent were 
provided housing because of lack of funding for housing.
    My third priority recommendation is to develop performance 
standards. There are performance standards now for Basic 
Centers. We believe that performance standards are necessary 
across all three of the programs.
    And finally, my last recommendation is to ask for an 
appeals process. Over the last 3 years, in more communities 
like those you represent, we have seen a greater need. We are 
seeing more and more grants go in, and often what is written 
gets missed by reviewers. I personally have had calls from a 
number of organizations saying, I answered this question on 
this page and yet I was turned down. There is no process now 
for a grantee to appeal that decision? We would be happy to 
talk with you about our technical recommendations, but that's 
our fourth recommendation.
    There are certainly solutions. I see that I'm out of time.
    Chairman Leahy. Everyone's whole statement will be made 
part of the record.
    Ms. Wagner. Okay.
    Chairman Leahy. Including any recommendation.
    Ms. Wagner. Our biggest recommendations, I've just given 
you, and all of our written recommendations you have. But thank 
you very much for letting me testify.
    Chairman Leahy. I think it would be safe to say you don't 
see the problem going away.
    Ms. Wagner. True.
    [The prepared statement of Ms. Wagner appears as a 
submission for the record.]
    Chairman Leahy. Senator Specter has been a tremendous help 
in these programs throughout his years, both as a member of 
this Committee and as a member of Appropriations. As often 
happens, most of us have four or five committee meetings going 
on at the same time. I know I have several others. He is stuck 
in one. But he wanted me to welcome Mr. Kilbane.
    Jerome Kilbane has worked for community-based organizations 
since 1988, assisting homeless, runaway, and at-risk youth. 
He's currently the executive director of the Covenant House in 
Pennsylvania, and Senator Specter wanted you to testify. He's 
held that position since 1999. In fact, you are responsible for 
starting up in Pennsylvania, in Philly, as I recall. From 1994 
to 1999, he held various positions with the Covenant House in 
Atlantic City, New Jersey, including associate executive 
director. He received both bachelors and master's degrees from 
St. Johns University.
    Mr. Kilbane, thank you for coming. Go ahead, please.

STATEMENT OF JEROME KILBANE, EXECUTIVE DIRECTOR, COVENANT HOUSE 
            PENNSYLVANIA, PHILADELPHIA, PENNSYLVANIA

    Mr. Kilbane. Good morning. Thank you, Chairman Leahy and 
members of the Committee, for allowing me to testify today.
    As you said, my name is Jerome Kilbane. I'm the executive 
director of Covenant House in Pennsylvania, located in 
Philadelphia. Covenant House International has been serving 
homeless and runaway youth since 1972. We serve kids under the 
age of 21. We began working with homeless and runaway youth 2 
years before the actual enactment of the Runaway and Homeless 
Youth Act.
    But since its inception, Covenant House has served over one 
million homeless youth throughout all of our sites. Last year 
alone, through Covenant House International, 65,000 kids were 
served. Sixty-five percent of the kids who come to Covenant 
House are between the ages of 18 and 21. They are the youth who 
are between the youth system and the adult system. Often, they 
are overlooked and invisible.
    Covenant House Pennsylvania, as you stated earlier, was 
started in 1999. Since that time, we have served probably 
10,000 kids. But last year, 3,500 young people came to our 
doors and received services. We provided emergency shelter and 
support services for over 500, and it looks like this fiscal 
year that number will be up 20 percent.
    We have a continuum of services, as many of the providers 
do, that starts with street outreach. Our major therapeutic 
tool is not our services, it's our relationships. It's 
beginning to reach out to kids to say, you have a place to go 
to, that you're worth more than being on the street. I think 
that is the message that we have to send to all of our young 
people.
    It may surprise many to learn that there is a large 
homeless population in the State of Pennsylvania. Homeless 
youth are largely invisible, as I said, and they're homeless 
for many reasons. Over half of the kids who come to Covenant 
House either age out of the foster care system or are 
abandoned. They're essentially thrown to the streets.
    At last count, there were 40 transitional housing beds in 
the entire State, in the entire Commonwealth of Pennsylvania. 
We served 500 young people in our shelter alone. The math just 
doesn't add up.
    We are beginning a project to expand the transitional 
housing beds for youth in the City of Philadelphia by building 
an 18-unit program in the Kensington section. That gives 30 
beds. But the reality of it is, again, it is not nearly enough.
    I think what was stated earlier is that programs work. Over 
80 percent of the kids who left our transitional housing 
program moved to a safe, stable living environment. You know, 
our kids do not need sympathy, they need empathy and choices 
and the support to do it.
    I was going to talk about a young lady who was given a 
scholarship through St. John's University who came to us 
homeless, was abused, and has recently graduated. But I want to 
talk a little bit about an experience I had. About a year ago, 
I got a phone call by a young man who had been to Covenant 
House. His name was Wesley. Wesley's goal after being through 
our crisis center was to enter the military. I got a phone call 
saying that he was killed in Iraq and we, Covenant House, was 
the last known address. I thought to myself the tremendous 
responsibility that we had, that when he was writing down what 
was the most important thing in his life, he said a homeless 
shelter.
    I cannot talk to you about the importance of this funding. 
The reality of it is, we'll give statistics about the numbers 
of kids on the street tonight, but the reality of it is, it's 
because of this funding that there are tens of thousands of 
kids who do not need to be on the street, who have a place to 
go. That is something that we need to celebrate. It's only 
because of you and the support that you've given to us, and the 
need to reenact this legislation.
    I cannot say enough that this makes a difference in 
thousands of kids' lives who have no other place to go, who 
have no one else to turn to. It's because of that that I think 
that's one of the things that we can say that we're proud of. 
So I'd like to thank you for your support and to ask, please, I 
come with my hat in my hand and I beg and ask you to please, 
please, support us again.
    [The prepared statement of Mr. Kilbane appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    I hope nobody will think this is political to say, but as a 
matter of priorities, you talk about the young man who was 
killed in Iraq, the amount of money we've spent in Iraq this 
week so far--it's not even noon on Tuesday--would fund all 
these programs several times over. At some point in our 
country, in thinking about our youth, we'd better start 
thinking about what our priorities are as a Nation. That's 
something that is not a Democratic or Republican view, but as 
Americans we have to start asking, what are our priorities?
    I look at my children. Our son, Mark, went in the Marine 
Corps out of Burlington High School. I look at our children, 
our grandchildren, and others. They have families with a stable 
life. But I also know a lot of people, and have met a lot of 
people both when I was a prosecutor and since I've been in the 
Senate, who do not have, the people you've talked about.
    Mr. Hounsou, you mentioned in your testimony the issue of 
homeless children. It's one that you can personally relate to. 
It's not just as some who take on a cause du jour, you do this 
because it means something to you.
    When you were a teenager, struggling with homelessness--and 
I realize it was in a different country--but what kind of 
programs or assistance would have been most helpful to you?
    Mr. Hounsou. Well, Mr. Chairman, my recollection, is that 
while I was growing up in France and was homeless, was that 
there was no facility that was geared towards homelessness. All 
I remember is that during the hard times that I was on the 
street, and those times were mostly the wintertimes when I 
didn't have enough warm clothes to sustain the harsh weather 
outside, I found myself mostly--being sent to a juvenile--sort 
of the juvenile prison to spend the night. So my experience 
was, within the course of 3 or 4 years before I was discovered 
on the street by a fashion designer and my life sort of turned 
around eventually. But there was no structure in place when I 
was growing up in France. There was no structure for 
homelessness, for homeless youth.
    Another one of the things that I found difficult for 
homeless youth is that I think we all have the sort of 
understanding that when you're homeless, you ought to be--the 
outlook is you're dirty, long hair, haven't washed for a long 
time, and don't have clean clothes on. So that is society's 
image of the homeless. But I think one thing that most of us 
are missing is that young men and women, mostly within the age 
of 16, 17, 18 years old, are always trying to look their best, 
while going out, searching for a minimum to eat, searching out 
for help to find a place to sleep.
    So, obviously we're all trying to look somewhat clean as 
we're searching for a better tomorrow. So I think most people 
look at that as, well, you're not really homeless, you look 
quite decent, you look quite clean, you're not really homeless. 
But there was no structure really in place to educate you, or 
someone to champion you, or to direct you in the right place, 
to the right facilities, or to the right people, to someone 
that can help. So that was my experience, growing up in France.
    Chairman Leahy. You talk about, to get a warm place to 
sleep they had to put you in a juvenile prison.
    Mr. Hounsou. Right.
    Chairman Leahy. Were there no mentors?
    Mr. Hounsou. There was no mentor. You were just given a 
letter. I was just given a letter to go to a juvenile prison to 
spend the night, and that was it. Yes.
    Chairman Leahy. Were you treated differently because of the 
color of your skin, as homeless?
    Mr. Hounsou. I can't really say that, in the sense that I 
didn't know any other homeless. I certainly wanted to distance 
myself from being with the group of homeless, because I didn't 
see any solution coming out of being in a group of kids that 
can't find means or ways to get out of the streets. It was not 
necessarily helpful, so I was just navigating through the city 
and trying to find help or assistance.
    Chairman Leahy. But there wasn't anything like a shelter 
you could go knock on the door and say, here, I want to do 
something.
    Mr. Hounsou. No.
    Chairman Leahy. I want school, I want a job, I want 
whatever, can you help me out.
    Mr. Hounsou. No. There weren't any shelters of the sort, 
no.
    Chairman Leahy. Would that have made a difference?
    Mr. Hounsou. That would have made a tremendous difference. 
I think there were probably some structures in place in France, 
but not to my knowledge at the time. I think that probably now 
it's definitely better today than it was before, but there 
weren't any shelter facilities, no.
    Chairman Leahy. And you weren't separated by language. Your 
first language is French.
    Mr. Hounsou. Yes. My first language is French, so it was 
not a question of language.
    Chairman Leahy. Let me then switch continents. Mr. Redmond, 
you serve a predominantly rural area in your work. For those 
who are watching, the largest city in Vermont is 38,000 people. 
Where I live, in a town of 1,200 people, it is more typical in 
Vermont. I live on a dirt road. My nearest neighbor is half a 
mile away--in this case, my son and daughter-in-law. That sets 
up a different thing. But you still have a lot of runaway and 
homeless youth, as you talked about.
    Can you refer to some of the particular problems within a 
rural area, how you reach out to these homeless, these runaway 
youths? Because if we have about 10,000 in Vermont, they're not 
all in the Burlington area, which has at least a certain urban 
core to it. They have to be all over the State.
    Mr. Redmond. Right. That's true. Thankfully, Kreig 
Pinkham's here today. He's head of the Vermont Coalition of 
Runaway and Homeless Youth Programs. There is a whole network 
of programs around the State that are there to help. Because 
you're right, they're not all in Burlington; they're in St. 
Johnsbury, they're in Brattleboro, they're in Bennington. So 
there's a series of smaller programs. Spectrum is the largest 
one. For a certain percentage of kids, Burlington becomes the 
downtown, and Church Street in Burlington is the downtown of 
the downtown. That's why we're right there. We're a block away 
from that, so that's important.
    So I think you're right. There are different challenges 
with a rural setting and those programs adapt in the way that 
they can. The program model we have was recently replicated in 
St. Johnsbury, which is probably the second or third largest in 
Vermont, because they saw the success that we were having. So I 
think the key to this Act is to provide enough flexibility so a 
State that has, like in Philadelphia, a high concentration of 
homeless youth, it can do what works there, and in a State like 
Vermont, can replicate programs that fit them the best.
    Chairman Leahy. Let me go into it a little bit further. You 
mentioned St. Johnsbury. Even that has a basic defined 
downtown. We don't have a downtown where I live. It's spread 
out over a large area. Not untypical of other parts, like the 
Northeast Kingdom where my wife was born, places of that 
nature, how do you find homeless? Where do they go?
    Mr. Redmond. Where do kids go from those communities?
    Chairman Leahy. Yes.
    Mr. Redmond. They're linked into--I mean, word of mouth is 
the biggest. Kids will hear about programs through the police, 
through counselors. But word of mouth among other homeless 
youth is the biggest network. So they will know where these 
different resources are. Some cities have apartments, 
supportive apartment programs. So finding them is never a 
problem. I mean, the beauty of the Act also has an outreach 
component, and that's key for us.
    As I said earlier, we have these staff and college students 
who are out every day and they know where these kids are, and 
they're connecting with them. These are young people who 
haven't had a good experience with adults, they haven't had a 
good experience with agencies and different institutions. So 
that's why I think it's key to engage them with young people--
we hire college students--who can really connect with them and 
build relationships. A lot of it is just the relationship 
building part that's the key to the work, in my opinion.
    Chairman Leahy. Well, then let me go to somebody who has 
experienced all parts of this, Mr. Hutchins. What I understand 
from your testimony, you were helped by some of these programs. 
What type of assistance--if you had to go and pick any one type 
of assistance, what was most valuable to you?
    Mr. Hutchins. I think the 18 months that I spent in the 
transitional living program helped me the most because it 
provided me stability. I wasn't, you know, moving back and 
forth from place to place or sleeping on people's couches. I 
had, you know, my own room. I paid rent. I had my own key to 
the door. I had a secure, safe place to stay and reside while I 
worked on my issues.
    Chairman Leahy. What about counseling? Did you get that 
during that time?
    Mr. Hutchins. Yes. Sometimes twice a week. Usually we try 
to get our youths to see counselors once a week.
    Chairman Leahy. When you're talking to homeless youth and 
they can see you dressed like you are now, in a suit and tie, 
you might get the, ``what the heck do you know, how do you 
know?'' Obviously, you can go to your own experience and say. 
But is there anything that--when you sent to Spectrum, any 
piece of advice or help that you find yourself going back and 
passing on to people who you're now trying to help or is it all 
varied from person to person?
    Mr. Hutchins. Everyone's experience varies. What they need 
to do to get their lives on track will vary. But I think the 
biggest piece of advice is, you really need to want it.
    Chairman Leahy. Do what?
    Mr. Hutchins. You really need to want to get your life back 
on track. We don't just hand youth a brand-new life, and here 
you go. It's a lot of work. You really need to dedicate 
yourself, and it's incredibly worth it once you get through.
    Chairman Leahy. Well, let me follow that a bit. Suppose you 
have a young person, an alcoholic, drug dependence, extremely 
angry from whatever put them there. It could have been a 
situation like Ms. Wagner or somebody else had. It's one thing 
when, in a case like you had, you wake up in a hospital and you 
say, this kind of sucks, you know. There's got to be something 
better than this, because the morgue is two floors down. I 
could have ended up in there, too.
    But is there some way of reaching, before someone reaches 
that point? That's pretty cataclysmic. When I was State's 
Attorney in Burlington in Chittenden County, we saw some of 
these homeless youths. But I did see them in the morgue. I did 
see them in the morgue. They hadn't sought the help. You said 
your heart stopped a couple of times. Their hearts stopped and 
stayed stopped.
    Is there anything you can do to reach them before they hit 
that point? What I'm trying to reach for is, is there a way of 
convincing somebody you really want to turn your life around 
before they reach that conclusion on their own?
    Mr. Hutchins. I think that's something we all try to figure 
out, how to stop someone from hitting that ultimate rock 
bottom. But it's really hard to get someone to really want to 
turn their life around until they've experienced that. So, 
unfortunately, people hit rock bottom and stay there. It's 
something I struggle with every day when I am working with 
someone who is, you know, not making the greatest decisions for 
themselves.
    I know from my experiences, me standing there and wagging 
my finger at them and telling them what not to do is only going 
to make them go out and do it. It's always a difficult task to 
figure out, you know, what's going to motivate them, how to get 
them motivated to turn things in a different direction and 
figure things out for themselves and become empowered and 
realize that they can be independent and make good decisions 
for themselves.
    Chairman Leahy. Finger wagging. Dealing with even younger 
children, I understand what you're saying. But I imagine the 
temptation must be there to say, listen up, I was there, pay 
attention, and to hit the right point.
    That sort of leads me to the next question. Ms. Wagner, you 
talked about your running away. They locked you up. Is that 
still happening today?
    Ms. Wagner. Oh, it's definitely still happening, yes. In 
the mid 1980s, there was a technicality placed in the Juvenile 
Justice Act called the Valid Court Order exception that created 
a loophole in the core requirement a for no longer locking up 
runaways and other kids for status offenses. Status offenses 
could be truancy, running away, things that if you or I did 
wouldn't be a crime. In 2004, over 400,000 young people were 
arrested or held in custody because of those kinds of status 
offenses.
    Chairman Leahy. Give me that number again.
    Ms. Wagner. Four hundred thousand. So in a lot of ways, I 
mean, we haven't totally turned back the clock. The really, 
really good news is that we have the Runaway and Homeless Youth 
Act. I guess I would like to add that having someone on the 
street to reach out a hand to a young person, I think, makes a 
critical difference. But the fact that we're still locking up 
young people is absolutely appalling, and worse is that they 
are locked up often for long periods of time.
    Chairman Leahy. Now, we have NIS-MART, too. For those who 
aren't used to acronyms, it's the Department of Justice that 
funds the National Incidence Studies of issuing, abducted, 
runaway, and thrown-away youth. I have to read it to remember 
all the words on it.
    Tell us a little bit about that study. Is it adequate or 
can we make it better?
    Ms. Wagner. Well, I think there are some big pieces missing 
from that study. For one thing, kids who didn't return home 
weren't counted, so if you remained homeless, you weren't 
counted in that study. It only included young people under 18. 
It didn't look at street youth--we've talked all the way 
through this, that homeless youth do not look like homeless 
adults. They don't sit with shopping carts or match the image 
Djimon spoke of. It's different. They often go from place to 
place, they couch surf. They become invisible and they try to 
blend in.
    Chairman Leahy. It could be a kid going back and forth to 
school.
    Ms. Wagner. Certainly. Kids that go to school, kids that 
sleep on their best friend's couch, kids unfortunately that 
turn tricks on the street because the first person they find is 
a john that will pick them up, all of those kinds of kids. But 
they are invisible. They do not get counted. They do not come 
to attention. We need a study that is a really thorough 
prevalence study that helps identify those kids and tells us 
what is the nature of this problem and how do we address it?
    Chairman Leahy. Can such a study be done? Assuming adequate 
funding and all, can it be done?
    Ms. Wagner. I think it can be done. In 2003, there was a 
report--a pretty thorough report released by HHS looking at 
different methodologies of studies, looking at costs for those 
studies, looking at how they could be done. There has been some 
work done very recently in New York with Colombia University. 
The University of Washington has looked at how to pilot a 
study. We honestly looked at an earmark to try to do a study. 
However that study is done, I don't think you can make adequate 
funding and policy decisions without being able to really say 
how many young people are homeless on the street.
    Chairman Leahy. Well, we've talked a lot about rural areas. 
Mr. Kilbane, in Philadelphia, which of course has a lot more 
population than our whole State, do you know how many homeless 
are living in your city? Do you know how many young people need 
services and are not getting them?
    Mr. Kilbane. No. I cannot give you an exact count, for a 
variety of reasons. One, is that we can say there are probably 
anywhere between 5,000 to 7,000 kids in care--in the Child 
Welfare system, for example--in the City of Philadelphia. A 
portion of those are going to age out and you have, I guess, 
some studies that have shown a 50 percent chance of being 
homeless if you age out of the foster care system. So, we can 
look at that.
    We are the largest provider of--
    Chairman Leahy. Explain what you mean by ``age out'' just 
so that--
    Mr. Kilbane. Sure. Essentially, once you turn the age of 18 
you're no longer eligible to receive support through the Child 
Welfare system across the country. Now, many cities, towns, or 
States have a process where young people, if not adopted, move 
from the foster care system into adulthood. There is some 
attempt to transition them, but often they are under-funded and 
under-serviced so many of the kids ending up becoming homeless. 
We want a 51-bed program in Philadelphia. We averaged, in the 
last 6 months, a census of over 60. So, I have more kids than I 
have beds for. But because we have an open intake policy which 
says anyone who shows up at our doors the first time is 
admitted, no questions asked, as long as they're under the age 
of 21. I think we have a moral obligation to accept them.
    So I can give you--and I think what's been established--is 
a guesstimate. It's a guesstimate. But the reality of it is, is 
that we are serving predominately youth between the ages of 17 
and a half and 21. I'm not even talking about kids who are 
under the age of 18, so there might be many, many more. One of 
the realities is, because we are 80 percent privately funded, 
Covenant House is, that niche population that no one really is 
serving enough of, is that group between 18 and 21. So, we have 
kind of--
    Chairman Leahy. How do people find out about you?
    Mr. Kilbane. I think what was said was very profound: half 
of the youth who come to Covenant House are referred by other 
kids. So, they're our best spokepeople. About 10 percent of the 
kid who come to our Basic Center or our crisis center are there 
through our outreach program. You asked the question about, you 
know, how do we get kids who are in need, how do we get them to 
make the right choices? The only answer that I've been able to 
come up with is that we have to be present to them. What that 
means is, I can give you a statistic that says about 40 percent 
of the kids who go through our crisis center move from the 
crisis center to a safe, stable living environment.
    Of the other 60 percent, overwhelmingly most of them return 
back to the crisis center. What that means is, the programs 
that say ``three strikes, you're out'' or put a limit on that 
don't work. We forget, I think, at times that we're dealing 
with adolescents, and adolescents are very difficult. They want 
to make their own decisions. They're going through tremendous 
turmoil, often. And I'm talking about adolescents who are in 
stable living environments. So when you place stress, 
homeless--
    Chairman Leahy. Even the Chairman was an adolescent at one 
time and I can think of some things I would have wrung my kids' 
necks if they'd done the same thing. If they see this 
transcript they're going to say, ``Dad, what was that?'' 
[Laughter].
    Mr. Kilbane. I think that we need to be present to them so 
that when they're ready to make that decision we say, welcome, 
come in. We can't say, no, you're out. Now, we can say to them, 
look, you have to make right choices and expect natural 
consequences of those choices. But I think the reality of it 
is, being present to them really helps with success. What we do 
know is that repeated attempts at trying to straighten your 
life out, your success rate goes up.
    Chairman Leahy. Would everybody else agree with that? Ms. 
Wagner, you're shaking your head yes.
    Ms. Wagner. I've actually been involved--when I was in my 
previous job at Youth Care, we did a number of research 
projects for the University of Washington and really looked at 
a process of young people that the more times they tried, they 
stayed in care longer and longer, and how important it is to 
have open-door policies. There's a lot of research that I wish 
you had time to hear that we'd be happy to provide you.
    Chairman Leahy. Well, when we close this out, we'll keep 
the record open. If there are other things you want to add, 
send it to the Judiciary Committee and we'll add it to the 
record.
    Mr. Hutchins, do you find that same thing, the more they 
try, the better the chance that they may succeed?
    Mr. Hutchins. I think one of the best examples is in our 
shelter. The basic expectation is, you get up on time, you do a 
chore, you come back for curfew on time, you go to bed on time. 
If those basic expectations aren't met, you get a certain 
accumulation of points before it counts as one strike. So, you 
have a bit of time before you can accumulate three strikes.
    Then you have to face being not in the shelter for a night 
to kind of get a little bit of a wake-up call and say, I'm not 
doing what I need to be doing. This is going to happen again 
when I go back, so maybe when I go back I should do the things 
that I'm supposed to do. People sometimes go back out there for 
a night a couple times, but eventually they learn. It's all 
about the learning process. So, the more times, the better the 
success.
    Chairman Leahy. Do you agree with that, Mr. Redmond?
    Mr. Redmond. Yes. It's interesting, listening to Jerome's 
statistics. We are very similar, even though they're two 
different locales: 44 percent of our kids in our shelter do 
make it to safe and stable housing. The other 50-plus percent, 
is it the second time, the third time, the tenth time? Who 
knows? Why does it click on the tenth time for one kid and it 
clicked on the first time for another? Who knows. But I think 
they're all correct. It's important that we be there to give 
kids multiple chances to succeed.
    Chairman Leahy. Mr. Hounsou, you have spoken about this. 
You must hear from people. I would assume you hear from kids 
who have made it. Do you?
    Mr. Hounsou. Oh, yes. I've heard from kids that were 
homeless. Also, it's a tragic problem in the sense that 
homeless kids meet other homeless kids, and basically they end 
up either in prostitution, because there's no other way of 
coming out and being self-sufficient, and to be self-
sufficient, you do kind of have to have a place to sleep so 
that you can allow yourself to dream about your future and what 
you want to accomplish tomorrow. But drug abuse and 
prostitution is the number-one thing that hits homeless kids.
    Chairman Leahy. Well, let us hope that--I'll be at a 
meeting with 20 or 50 other Senators later today. I'm going to 
be talking about this hearing. Let's hope we get 
reauthorization, but let's also do it in a flexible enough way 
that if we find things that work better than other things, that 
we can put the emphasis on that. This country ought to be able 
to afford it. Some of us, like myself, feel that this country 
can't afford not to do this, because we lose part of our soul 
if we don't.
    We stand in recess. Thank you.
    [Whereupon, at 11:14 a.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 42785.001

[GRAPHIC] [TIFF OMITTED] 42785.002

[GRAPHIC] [TIFF OMITTED] 42785.003

[GRAPHIC] [TIFF OMITTED] 42785.004

[GRAPHIC] [TIFF OMITTED] 42785.005

[GRAPHIC] [TIFF OMITTED] 42785.006

[GRAPHIC] [TIFF OMITTED] 42785.007

[GRAPHIC] [TIFF OMITTED] 42785.008

[GRAPHIC] [TIFF OMITTED] 42785.009

[GRAPHIC] [TIFF OMITTED] 42785.010

[GRAPHIC] [TIFF OMITTED] 42785.011

[GRAPHIC] [TIFF OMITTED] 42785.012

[GRAPHIC] [TIFF OMITTED] 42785.013

[GRAPHIC] [TIFF OMITTED] 42785.014

[GRAPHIC] [TIFF OMITTED] 42785.015

[GRAPHIC] [TIFF OMITTED] 42785.016

[GRAPHIC] [TIFF OMITTED] 42785.017

[GRAPHIC] [TIFF OMITTED] 42785.018

[GRAPHIC] [TIFF OMITTED] 42785.019

[GRAPHIC] [TIFF OMITTED] 42785.020

[GRAPHIC] [TIFF OMITTED] 42785.021

[GRAPHIC] [TIFF OMITTED] 42785.022

[GRAPHIC] [TIFF OMITTED] 42785.023

[GRAPHIC] [TIFF OMITTED] 42785.024

[GRAPHIC] [TIFF OMITTED] 42785.025

[GRAPHIC] [TIFF OMITTED] 42785.026

[GRAPHIC] [TIFF OMITTED] 42785.027

[GRAPHIC] [TIFF OMITTED] 42785.028

[GRAPHIC] [TIFF OMITTED] 42785.029

[GRAPHIC] [TIFF OMITTED] 42785.030

[GRAPHIC] [TIFF OMITTED] 42785.031

[GRAPHIC] [TIFF OMITTED] 42785.032

[GRAPHIC] [TIFF OMITTED] 42785.033

[GRAPHIC] [TIFF OMITTED] 42785.034

[GRAPHIC] [TIFF OMITTED] 42785.035

[GRAPHIC] [TIFF OMITTED] 42785.036

[GRAPHIC] [TIFF OMITTED] 42785.037

[GRAPHIC] [TIFF OMITTED] 42785.038

[GRAPHIC] [TIFF OMITTED] 42785.039

[GRAPHIC] [TIFF OMITTED] 42785.040

                                 <all>

</pre></body></html>
